i'''~DEPARTMENT
i'''~   DEPARTMENT
                OF OF HEALTIl
                   HEALTH      HUMANSERVICES

                           & &HUMAN  SERVICES                                                       OFFICE
                                                                                                    OFFICE OF INSPECTOR GENERAL


{"-ff­
("   -f
 ~~"Qlz~
 ~~"Qlz~
                                                                                                    Offce  of Audit
                                                                                                    Officeof  Audit Service,
                                                                                                    Public Ledger
                                                                                                    150 S.
                                                                                                                    Services, Region
                                                                                                           Leger Building,
                                                                                                                              RegionILL

                                                                                                                   Building,Suite
                                                                                                        S. Independence Mall
                                                                                                                             Suite316
                                                                                                                         Mall West
                                                                                                                                  316
                                                                                                                                     III


                                                                                                    Philadelphia, PA
                                                                                                    Phiadelphia,  PA 19106-3499
                                                                                                                     19106-3499



                                                              JUN 242009
                                                              JUN


           Report Number: A-03-07-00029
                  Number: A-03-07-00029

           Mr. Todd Kerr
           Senior Vice President and Chief Compliance
                                           Compliance Officer
                                                      Offcer
           Fresenius Medical Care
           Fresenius Medical  CareNorth
                                   Nort America
                                        America
           920 Winter Street
                                    02451-1457
           Waltham, Massachusetts 02451-1457

           Dear Mr. Kerr:

           Enclosed isis the
           Enclosed            theU.S.U.S.Department
                                              Deparent ofofHealth     Healthand
                                                                             andHuman
                                                                                 HumanServices
                                                                                         Services (HHS), Office
                                                                                                          Office of
                                                                                                                 of Inspector
                                                                                                                     Inspector
           General (GIG), final report entitled "Payments for Epogen Administered at Fresenius Medical
           Care-Wynnewood,
           Care-Wynnewood,                    Wynnewood,
                           Wynnewood, Pennsylvana." We wil forward a Pennsylvania."
                                                                     copy of         We will forward a copy of ths
                                                                                                                this report
                                                                                                                      report to
                                                                                                                             to the

                                                                                                                                the
           HHS action official officialnotednotedon   on the
                                                           the following
                                                                 followingpage
                                                                             pagefor
                                                                                  forreview
                                                                                      reviewand
                                                                                             andany
                                                                                                 any action
                                                                                                     action deemed
                                                                                                            deemed necessary.
                                                                                                                       necessar.

           The HHS action official will  make final
                                     wil make   final determnation
                                                      determinationas
                                                                    astotoactions
                                                                           actions taken
                                                                                    taken on
                                                                                          on all
                                                                                              all matters
                                                                                                  matters reported.
                                                                                                           reported.
           We request
               request that
                       that you
                            you respond
                                 respondtotothis
                                             ths official
                                                 official within
                                                          withn 30 days
                                                                   days from
                                                                          from the
                                                                                thedate
                                                                                     dateof
                                                                                          ofthis
                                                                                             ths letter.
                                                                                                  letter. Your
           response should present any comments or additional information that you believe may have a
           bearing on the final determnation.
           bearng               determination.

           Pursuant to the Freedom of Information Act, Act, 55 U.S.c. §§ 552,
                                                                         552, OIG
                                                                              OIG reports generally are made
           available to the public to the extent that information in the report is not subject to exemptions in
               Act. Accordingly,
           the Act. Accordingly, ths
                                   thisreport
                                        reportwil
                                               willbebeposted
                                                        postedononthe
                                                                   theInternet
                                                                        Internetatathttp://oig.hhs.gov.
                                                                                    http://oig.hhs.gov.

           If you have any questions or comments
                                        comments about
                                                    about this report, please do not hesitate to call me at
                                                          ths report,
           (215)
           (215) 861-4470
                 861-4470 or
                           or through email at
                              though email  at Stephen.Virbitsky(goig.hhs.gov,
                                               Stephen.Virbitsky@oig.hhs.gov, or  or contact
                                                                                      contact Bernard   Siegel,
                                                                                              Bernard Siegel,
                  Manager, at
           Audit Manager,  at (215)
                              (215) 861-4484
                                    861-4484or orthrough
                                                  though email at Bernard.Siegel@oig.hhs.gov.
                                                                   Bernard.Siegel(goig.hhs.gov. Please refer
           to report number A-03-07-00029 in all correspondence.

                                                                   Sincerely,


                                                             ~~k
                                                              LStephen
                                                             # -- Regional
                                                                           Virbltsky
                                                              LStephen Virbitsky
                                                             V'   Regional Inspector
                                                                                    L
                                                                            Inspector General
                                                                    for Audit Services
                                                                                      General





           Enclosure
Page 2 -- Mr.
          Mr. Todd Kerr


Direct Reply to HHS Action
                    Action Official:
                           Offcial:

Janet Samen
Director, Division of Chronic Care Management
Center for Medicare Management (CCPG/DCCM)
Centers for Medicare & & Medicaid Services
Mail Stop C5-05-07
7500 Security Boulevard
Baltimore, Maryland
Baltimore,    Marland 21244-1850
                       21244-1850
Janet.Samen
J anet. S amen @cms.hhs.gov
               (gcms.hhs.gov
Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





      PAYMENTS FOR 

  EPOGEN ADMINISTERED AT

 FRESENIUS MEDICAL CARE –

       WYNNEWOOD,

 WYNNEWOOD, PENNSYLVANIA 





                    Daniel R. Levinson

                     Inspector General 


                        June 2009 

                      A-03-07-00029

                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                             Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the Freedom of Information Act, 5 U.S.C. ' 552, Office of
Inspector General reports generally are made available to the public to
the extent that information in the report is not subject to exemptions in
the Act.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY 


BACKGROUND

Pursuant to Title XVIII of the Social Security Act (the Act), the Medicare program provides
health insurance for people 65 years of age and older, people under 65 with certain disabilities,
and people of all ages with end-stage renal disease (permanent kidney failure requiring a kidney
transplant or dialysis). The Centers for Medicare & Medicaid Services administers the program.

Section 1881(a) of the Act establishes the benefits provided by Medicare Parts A and B for
individuals who have been determined to have end-stage renal disease as provided in
section 226A of the Act. Benefits include injections of Epogen, usually administered during
dialysis. Individuals diagnosed with end-stage renal disease often suffer from anemia and
Epogen lessens the effects of anemia for those patients. Epogen doses are generally adjusted by
a physician based on a review of the patient’s medical record. For facilities that use a
preestablished dosing algorithm, a nurse may also adjust the Epogen dose to maintain an optimal
hematocrit (red blood cell) level.

As a basis for payment, section 1833(e) of the Act states: “No payment shall be made to any
provider of services or other person under this part unless there has been furnished such
information as may be necessary in order to determine the amounts due . . . .” Federal
regulations (42 CFR § 424.5(a)(6)) require providers to furnish sufficient information, upon
request, to determine whether payment is due and, if so, the amount to be paid.

Fresenius Medical Care—Wynnewood (Wynnewood), located in Wynnewood, Pennsylvania, is
one of more than 1,500 renal dialysis facilities operated by Fresenius Medical Care North
America (Fresenius). Wynnewood provides treatment for end-stage renal disease at 31 renal
dialysis stations. It received payments totaling $8,587,820 for Medicare service provided from
January 1, 2004, through June 30, 2006. Of this amount, $2,796,452 was for the administration
of Epogen. During our audit period, Wynnewood used a dosing algorithm to adjust patient
Epogen doses.

Fresenius acquired Wynnewood from Renal Care Group, Incorporated, during our audit period,
on March 31, 2006.

OBJECTIVE

Our objective was to determine whether Wynnewood administered, billed, and was paid for units
of Epogen consistent with the units that were ordered by attending physicians, as reflected in
Wynnewood’s medical records.

SUMMARY OF FINDING

For 88 of the 100 sampled claims, Wynnewood administered, billed, and was paid for units of
Epogen that were consistent with the units ordered by attending physicians, as reflected in
Wynnewood’s medical records. However, Wynnewood did not meet the Medicare payment



                                                i
requirements for some dates of services for 12 claims (one of the claims had multiple errors). In
those instances, we identified discrepancies in Wynnewood’s medical and billing records
between the units of Epogen ordered by the patients’ attending physicians and the units
administered to the patients, billed by Wynnewood, and paid by Medicare.

   •	 For four claims with errors totaling $371, Wynnewood’s medical and billing records
      reflected that more units of Epogen were administered to patients, billed by Wynnewood,
      and paid by Medicare than were ordered by the patients’ attending physicians, resulting
      in overpayments.

   •	 For nine claims, Wynnewood’s medical and billing records reflected discrepancies
      between the units of Epogen ordered by the patients’ attending physicians and the units
      administered to the patients, billed by Wynnewood, and paid by Medicare. For purposes
      of this report, we considered these errors procedural because they did not result in
      overpayments.

The errors related to these 12 claims occurred because nurses responsible for administering
Epogen did not always follow the policies and procedures in the Renal Care Group Manual for
ensuring that the units of Epogen administered were equal to the dose ordered by the attending
physician as reflected in the patients’ medical records and that Epogen doses calculated by
nurses were in accordance with the Wynnewood algorithm. Also, physicians did not always
verify and sign their telephone orders and nurses’ Epogen dose changes, based on the algorithm
ordered for the patient, in a timely manner. As a result, Wynnewood received $371 in
overpayments and patients did not always receive the amounts of Epogen ordered by attending
physicians. When attending physicians’ orders are not followed, quality of care may be affected.

RECOMMENDATIONS

We recommend that Wynnewood:

   •	 refund the $371 in overpayments and

   •	 ensure that it follows policies and procedures that are consistent with Federal
      requirements in order to avoid discrepancies between the units of Epogen ordered by
      patients’ physicians and the units administered to the patient, billed by Wynnewood, and
      paid by Medicare.

FRESENIUS COMMENTS

In comments on our draft report (see Appendix), Fresenius stated that it will refund the $371 in
overpayments and that the nursing staff will undergo a training program to improve compliance
with policies and procedures relating to the ordering and administration of Epogen. Fresenius
also brought to our attention a technical correction regarding its algorithm policy that we have
amended in the report.




                                                ii
                                                 TABLE OF CONTENTS 


                                                                                                                                   Page

INTRODUCTION........................................................................................................................1 


          BACKGROUND ...............................................................................................................1         

              Medicare ................................................................................................................1      

              Epogen Therapy for End-Stage Renal Disease Patients ........................................1 

              Medicare Requirements and Payments for End-Stage Renal Disease Services ....2 

              Fresenius Medical Care—Wynnewood .................................................................2                             

              Renal Care Group’s Policy Manual and Medical Information System .................2 


          OBJECTIVE, SCOPE, AND METHODOLOGY .............................................................3 

               Objective ................................................................................................................3    

               Scope......................................................................................................................3   

               Methodology ..........................................................................................................3        


FINDINGS AND RECOMMENDATIONS ..............................................................................4 


          FEDERAL REQUIREMENTS..........................................................................................5                     

               Medical Recordkeeping .........................................................................................5               

               Medicare Payment Procedures...............................................................................5                    


          CLAIMS FOR EPOGEN NOT CONSISTENT WITH PHYSICIANS’ ORDERS ..........5 

               More Units of Epogen Administered, Billed, and Paid, Than Ordered.................6 


          CLAIMS WITH PROCEDURAL ERRORS THAT RESULTED IN
            DISCREPANCIES.........................................................................................................6 

                Epogen Doses Differed From the Wynnewood Algorithm ...................................7 

                Claim Not Correctly Billed ...................................................................................7 

                Fewer Units of Epogen Administered, Billed, and Paid, Than Ordered................8 

                Patient’s Medical Record Not Clearly Documented..............................................8 


          WYNNEWOOD POLICIES AND PROCEDURES NOT ALWAYS FOLLOWED.......8 


          RECOMMENDATIONS...................................................................................................9                 


          FRESENIUS COMMENTS ..............................................................................................9                  


APPENDIX

          FRESENIUS MEDICAL CARE NORTH AMERICA COMMENTS




                                                                   iii
                                              INTRODUCTION                                                            


BACKGROUND

Medicare

Pursuant to Title XVIII of the Social Security Act (the Act), the Medicare program provides
health insurance for people 65 years of age and older, people under 65 with certain disabilities,
and people of all ages with end-stage renal disease (permanent kidney failure requiring a kidney
transplant or dialysis). The Centers for Medicare & Medicaid Services (CMS) administers the
program.

Epogen Therapy for End-Stage Renal Disease Patients

Section 1881(a) of the Act establishes the benefits provided by Medicare Parts A and B for
individuals who have been determined to have end-stage renal disease as provided in
section 226A of the Act. Benefits include injections of Epogen, usually administered during
dialysis. 1

Individuals diagnosed with end-stage renal disease often suffer from anemia, and Epogen lessens
the effects of anemia for those patients. The initial dose of Epogen is based on an individual’s
weight and hematocrit level, a measure of the percentage of red blood cells in the blood. The
target hematocrit level for dialysis patients receiving Epogen therapy is 30 to 36 percent, which
represents a hemoglobin level of 10 to 12 grams per deciliter. 2 For dialysis patients, hematocrit
levels above 36 percent can lead to increased risk of cardiovascular complications and death. 3

Epogen doses are generally adjusted by a physician based on a review of the patient’s medical
record. Some facilities may also use a preestablished dosing algorithm. An algorithm is a
formula established by attending physicians. It requires the nurse on duty to gather information
from the patient’s medical record and determine the correct dose of Epogen to maintain an
optimal hematocrit level. Based on the algorithm, a nurse may decrease, increase, or maintain
the patient’s Epogen dose or temporarily suspend the dose for one or more treatments. Fresenius
Medical Care—Wynnewood (Wynnewood) used an algorithm established by the attending
physicians to determine the dose of Epogen to administer to patients.




1
 Epogen is an “erythropoiesis-stimulating agent,” manufactured by Amgen, which stimulates the production of red
blood cells.
2
    CMS “Medicare Claims Processing Manual,” Pub. No. 100-04, chapter 8, section 60.4.
3
 After our audit period, the Food and Drug Administration issued a black box label warning for Epogen that
“erythropoiesis-stimulating agents (ESAs) increased the risk for death and for serious cardiovascular events when
administered to target a hemoglobin of greater than 12 [grams per deciliter] . . . .” Food and Drug Administration,
“Epogen Label,” March 9, 2007. Available online at http://www.fda.gov/cder/foi/label/2007/103234s5122lbl.pdf.
Accessed on April 23, 2009.


                                                          1

Medicare Requirements and Payments for End-Stage Renal Disease Services

As a basis for payment, section 1833(e) of the Act states: “No payment shall be made to any
provider of services or other person under this part unless there has been furnished such
information as may be necessary in order to determine the amounts due . . . .” Federal
regulations (42 CFR § 424.5(a)(6)) require providers to furnish sufficient information, upon
request, to determine whether payment is due and, if so, the amount to be paid.

CMS’s “Medicare Claims Processing Manual,” Pub. No. 100-04, chapter 8, section 10.1,
specifies that renal dialysis facilities receive a composite rate for outpatient maintenance dialysis
services. The composite rate is a comprehensive payment for dialysis services except for bad
debt, physicians’ patient care services, separately billable laboratory services, and separately
billable drugs, including Epogen. CMS contracts with fiscal intermediaries 4 to process and pay
Medicare Part B claims for Epogen administered by renal dialysis facilities. Generally, for each
patient, providers submit one bill per month, which includes the charges for up to 14 dialysis
treatments, separately billable laboratory services, and separately billable drugs, including
Epogen. Providers submitted claims that identified the total units of Epogen administered to
each patient during the billing period, not the dose of Epogen administered during each
treatment. Payments for Epogen are subject to Medicare Part B deductible and coinsurance
requirements.

Fresenius Medical Care—Wynnewood

Fresenius Medical Care North America (Fresenius), located in Waltham, Massachusetts, is a
wholly owned subsidiary of Fresenius Medical Care AG & Company KGaA, located in Bad
Homburg, Germany. Fresenius provides products and services for individuals with chronic
kidney failure.

Wynnewood, located in Wynnewood, Pennsylvania, is one of more than 1,500 renal dialysis
facilities operated by Fresenius. Wynnewood provides treatment for end-stage renal disease at
31 renal dialysis stations. It received payments totaling $8,587,820 for Medicare services
provided from January 1, 2004, through June 30, 2006. Of this amount, $2,796,452 was for the
administration of Epogen.

Fresenius acquired Wynnewood from Renal Care Group, Incorporated, during our audit period,
on March 31, 2006.

Renal Care Group’s Policy Manual and Medical Information System

To assist in its facilities’ effort to comply with requirements under Federal and State law, Renal
Care Group established a medical record policy and documentation procedure in its Renal Care
Group Manual, including maintenance of medical records, providing dialysis services, and use of

4
 During the audit period, the Medicare Part B claims we reviewed were processed and paid by fiscal intermediaries.
The Medicare Modernization Act of 2003, P. L. No. 108-173, which became effective on October 1, 2005, amended
certain sections of the Act, including section 1842(a), to require that Medicare administrative contractors replace
carriers and fiscal intermediaries by October 2011.


                                                         2

electronic signatures in the Renal Care Group automated medical record system (Wynnewood
System). The Wynnewood System is an automated medical record system to document
physician orders, including medications, and dialysis services. The Wynnewood System assigns
each user authenticated access to authorized areas in the medical record system necessary to
perform assigned tasks. The Wynnewood System automatically records the service performed,
including the administration of Epogen, as well as the date and time recorded by the user. Once
entered, the information cannot be altered. Wynnewood continued to use the Renal Care Group
Manual and the Wynnewood System after it was acquired by Fresenius.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether Wynnewood administered, billed, and was paid for units
of Epogen consistent with the units that were ordered by attending physicians, as reflected in
Wynnewood’s medical records.

Scope

Our review covered 3,663 monthly claims totaling $2,796,452 for Epogen administered by
Wynnewood from January 1, 2004, through June 30, 2006.

We limited our review of Wynnewood’s internal controls to the administration of and billing for
Epogen, including medical recordkeeping. The objective of our review did not require an
understanding or assessment of Wynnewood’s complete internal control structure. We did not
determine the medical necessity of any items or services, including Epogen.

We performed fieldwork at Wynnewood in Wynnewood, Pennsylvania, and the Fresenius
headquarters in Waltham, Massachusetts.

Methodology

To accomplish our objective, we:

   •	 reviewed applicable Federal laws, regulations, and guidance related to the treatment of
      end-stage renal disease, renal dialysis facilities, and the administration of Epogen;

   •	 reviewed applicable State laws, regulations, and guidance related to Wynnewood’s
      policies and procedures and the Renal Care Group Manual;

   •	 reviewed Wynnewood’s policies and procedures, including the Renal Care Group 

      Manual, and its medical recordkeeping and billing practices; 


   •	 interviewed Fresenius and Wynnewood officials;




                                               3

   •	 identified and assessed the adequacy of internal controls related to the administration of
      and billing for Epogen; and

   •	 identified a sample frame of all claims in the CMS claims history file with Epogen
      administered at Wynnewood from January 1, 2004, through June 30, 2006, and:

       o	 selected from the sampling frame a simple random sample of 100 claims for Epogen
          totaling $83,910 and

       o	 for each sampled claim, compared the units of Epogen ordered by the Wynnewood
          attending physician, administered to patients, billed by Wynnewood, and paid by
          Medicare to determine whether such units, as reflected in Wynnewood’s medical and
          billing records, were consistent with each other.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

For 88 of the 100 sampled claims, Wynnewood administered, billed, and was paid for units of
Epogen that were consistent with the units ordered by attending physicians, as reflected in
Wynnewood’s medical records. However, Wynnewood did not meet the Medicare payment
requirements for some dates of services for 12 claims (one of the claims had multiple errors). In
those instances, we identified discrepancies in Wynnewood’s medical and billing records
between the units of Epogen ordered by the patients’ attending physicians and the units
administered to the patients, billed by Wynnewood, and paid by Medicare.

   •	 For four claims with errors totaling $371, Wynnewood’s medical and billing records
      reflected that more units of Epogen were administered to patients, billed by Wynnewood,
      and paid by Medicare than were ordered by the patients’ attending physicians, resulting
      in overpayments.

   •	 For nine claims, Wynnewood’s medical and billing records reflected discrepancies
      between the units of Epogen ordered by the patients’ attending physicians and the units
      administered to the patients, billed by Wynnewood, and paid by Medicare. For purposes
      of this report, we considered these errors procedural because they did not result in
      overpayments.

The errors related to these 12 claims occurred because nurses responsible for administering
Epogen did not always follow the policies and procedures in the Renal Care Group Manual for
ensuring that the units of Epogen administered were equal to the dose ordered by the attending
physician as reflected in the patients’ medical records and that Epogen doses calculated by
nurses were in accordance with the algorithm ordered for the patient. Also, physicians did not


                                                4

always verify and sign their telephone orders and nurses’ Epogen dose changes, based on the
algorithm ordered for the patient, in a timely manner. As a result, Wynnewood received $371 in
overpayments and patients did not always receive the amounts of Epogen ordered by attending
physicians. When attending physicians’ orders are not followed, quality of care may be affected.

FEDERAL REQUIREMENTS

Medical Recordkeeping

As a condition of coverage during our audit period, renal dialysis facilities were required to
centralize all clinical information in each patient’s medical record in accordance with accepted
professional standards and practices (42 CFR § 405.2139). 5 The medical records were required
to be “completely and accurately documented, readily available, and systematically organized to
facilitate the compilation and retrieval of information.” Subsection (a) of 42 § CFR 405.2139
further stated that medical records must contain certain general categories of information,
including “diagnostic and therapeutic orders; observations, and progress notes; reports of
treatments and clinical findings . . . .”

Medicare Payment Procedures

As a basis for payment, section 1833(e) of the Act states that “No payment shall be made to any
provider of services or other person under this part unless there has been furnished such
information as may be necessary in order to determine the amounts due such provider or other
person under this part for the period with respect to which the amounts are being paid or for any
prior period.”

Federal regulations (42 CFR § 424.5(a)(6)) require providers to furnish sufficient information,
upon request, to determine whether payment is due and, if so, the amount to be paid.

Beginning April 1, 2006, CMS’s “Medicare Claims Processing Manual,” Pub. No. 100-04,
chapter 8, section 60.4, required that renal dialysis facilities reduce the Epogen dose by
25 percent for patients whose hematocrit reading exceeded 39 percent in the preceding month. If
the renal dialysis facility did not reduce the dose by 25 percent, CMS would reduce the
reimbursement for Epogen by 25 percent. To avoid the reduced reimbursement, the provider
was required to include a “GS” modifier on the claim to indicate that it had reduced the Epogen
dose by 25 percent. Beginning January 1, 2006, the hematocrit reading included on the bill to
Medicare should reflect the patient’s most recent reading taken before the start of the billing
period.

CLAIMS FOR EPOGEN NOT CONSISTENT WITH PHYSICIANS’ ORDERS

For each sample claim, we compared Wynnewood’s medical and billing records with respect to
the units of Epogen (1) ordered by the patients’ attending physicians, (2) administered by the

5
 This condition for coverage was amended effective October 14, 2008. The amended condition for coverage is now
at 42 CFR § 494.170.



                                                      5

nurse to the patient, (3) billed by Wynnewood, and (4) paid by Medicare. For four claims with
questioned amounts totaling $371, there were discrepancies in Wynnewood’s medical and billing
records between the units of Epogen ordered by the attending physician and the units of Epogen
administered, billed by Wynnewood, and paid by Medicare. Wynnewood administered, billed,
and was paid for higher doses than ordered by the attending physician, as documented in
Wynnewood’s medical and billing records.

More Units of Epogen Administered, Billed, and Paid, Than Ordered

For the four claims, covering four patients, Wynnewood’s medical records contained attending
physicians’ orders for lower or less frequent doses of Epogen than administered by the attending
nurse.

   •	 For one claim the attending physician’s order prescribed that the patient receives units of
      Epogen once every other week; however, the patient received units of Epogen four times
      during the month reviewed. .The patient received, Wynnewood billed, and Medicare paid
      for 32,000 more units of Epogen, totaling $256, than was ordered.

   •	 For two claims the attending physician’s orders increased the units prescribed for two
      patients during the month reviewed but each patient received two doses on the date the
      units were increased–the original dose plus the new dose prescribed by the attending
      physicians on that date. In total, these two patients received, Wynnewood billed, and
      Medicare paid for 14,300 more units of Epogen, totaling $112, than was ordered.

   •	 For one claim the attending physician’s order prescribed that the patient receives
      15,000 units of Epogen with each dialysis treatment. For one date of service during the
      month reviewed the nurse administered 15,400 units to the patient. Wynnewood billed
      and Medicare paid for 400 more units of Epogen, totaling $3, than was ordered.

Wynnewood administered, billed, and was paid for 46,700 units more, totaling $371, than was
ordered.

CLAIMS WITH PROCEDURAL ERRORS THAT RESULTED IN DISCREPANCIES

In Pennsylvania, the Professional Nursing Law establishes standards for nursing schools and the
conduct of nursing programs and defines the practice of medical nursing to include executing
medical regimens as prescribed by a licensed physician. Pennsylvania’s Administrative Code
(49 Pa. Code Chapter 21) further regulates the profession of nursing, including the
administration of prescription medications.

For nine claims, Wynnewood’s medical and billing records reflected discrepancies between the
units of Epogen ordered by the patients’ attending physicians and the units administered to the
patients, billed by Wynnewood, and paid by Medicare for one or more dates of service during the
month reviewed. These claims did not result in an overpayment and are, for purposes of this
report, considered procedural errors. For five of the nine claims, the nurse calculated a higher
dose than suggested by the algorithm ordered for the patient. For two claims, Wynnewood


                                               6

included incorrect information on the claims resulting in underpayments. For one claim,
Wynnewood administered, billed and was paid for fewer units of Epogen than ordered and for
one claim, the documentation of the amount of Epogen administered was confusing.

Epogen Doses Differed From the Wynnewood Algorithm

For five claims, Wynnewood’s medical records included nurses’ changes to the dose of Epogen
that did not follow the algorithm ordered by the attending physician. Wynnewood nurses are
permitted to establish a patient’s Epogen dose using the algorithm. All changes are updated in
the Wynnewood System alerting attending physicians to electronically sign any changes to the
dose of Epogen made by a nurse.

    •	 For two claims, the algorithm directed that the doses of Epogen be suspended for 2 weeks
       or until the patient’s hematocrit level was below 40 percent. The nurse then determines
       whether to start the Epogen dose at 2,000 units or 25 percent lower than the previous
       dose. However, for one patient the Wynnewood medical record reflected that instead of
       suspending the Epogen dose of 6,800 units, a nurse lowered it to 5,700 units. For the
       other patient, the medical record reflected that the nurse suspended the Epogen dose of
       25,800 units for 1 week then started the Epogen at 19,800 units.

    •	 For one claim, the algorithm directed that the dose of Epogen remain at 5,500 units;
       however, the patient’s medical record reflected that the nurse increased the dose to 6,600
       units.

    •	 For two claims, the algorithm directed that the doses of Epogen be increased (from
       18,700 to 22,700 units and from 23,200 to 25,200 units); however, the patients’ medical
       records reflected that nurses administered higher doses (27,700 and 25,800 units,
       respectively) than identified by the Wynnewood algorithm.

Attending physicians electronically signed these order changes 6, 7, 35, 76, and 405 days after
the effective date of the changes but none of the patients’ medical records reflected why the dose
differed from the Wynnewood algorithm.

Claim Not Correctly Billed

For one claim with dates of service during April 2006, the patient had a hematocrit level lower
than 39 percent at the end of the preceding month; however, Wynnewood reported a hematocrit
higher than 39 percent. Beginning January 1, 2006, the hematocrit reading reported should be
the patient’s most recent reading taken before the start of the billing period. 6 Also, beginning
April 1, 2006, CMS required that renal dialysis facilities reduce the Epogen dose by 25 percent
for patients whose hematocrit reading exceeded 39 percent in the preceding month. If the renal
dialysis facility did not reduce the dose by 25 percent, CMS would reduce the payment for
Epogen by 25 percent.


6
 Prior to January 1, 2006, the hematocrit reading reported was the reading reported prior to the last Epogen dose
administered during the billing period.


                                                          7

Wynnewood administered and billed for the units of Epogen ordered by the attending physician,
as documented in Wynnewood’s medical and billing records but incorrectly identified the
hematocrit as 40.5 percent instead of 36.3 percent. Consequently, CMS reduced the payment for
Epogen from $197.13 to $147.78. As a result, Wynnewood was underpaid $49.35.

For one claim with dates of service in April 2004, the attending physician ordered and the patient
received 40,000 units of Epogen for self-administration during May 2004 home dialysis
treatments. However, while the attending physician ordered and the patient received 40,000
units, Wynnewood billed and was paid by Medicare for only 4,000 units of Epogen. As a result,
Wynnewood was underpaid $288 for 36,000 units of Epogen.

Fewer Units of Epogen Administered, Billed, and Paid, Than Ordered

For one claim, Wynnewood’s medical records included an attending physician’s order to
administer 8,800 units of Epogen, but on one date of service during the month reviewed the
patient only received 8,000 units. Wynnewood administered, billed, and was paid for fewer units
than ordered.

Patient’s Medical Record Not Clearly Documented

For one claim, the patient’s medical record was not updated on the date of service to reflect all
services performed because the computer system was down. Although manual records
documented the dialysis services performed it did not document the administration of Epogen.
When the system was restored, summary information was posted to the Wynnewood System and
the manual records were filed away. During the patient’s next treatment, the nurse made a
statement in the Wynnewood System that “the dose of Epogen was doubled because the
computer system was down” during the previous treatment. We were unable to determine
whether 6,600 units of Epogen were administered during each treatments or whether
13,200 units of Epogen were administered during the second treatment.

WYNNEWOOD POLICIES AND PROCEDURES NOT ALWAYS FOLLOWED

To assist in its facilities’ efforts to comply with requirements under Federal law and States’
respective Nurse Practice Acts, Wynnewood operated under the Renal Care Group policies and
procedures and the Wynnewood System that requires the use of electronic signatures. Although
acquired by Fresenius in March 2006, Wynnewood continues to operate under those policies and
procedures, including the Renal Care Group Manual.

   •	 The Wynnewood System documents patient treatment. Each user of the system is
      assigned a unique login and password that (1) authenticates the user’s security level and
      (2) allows the user access to those areas necessary to perform their assigned duties. The
      Wynnewood System dates and time stamps each event completed by the physician and
      the nurse and prevents the record from being changed.

   •	 Nurses provide treatment to patients based on the instructions recorded in the 

      Wynnewood System. The “Routine Medication Summary” of the medical record 



                                                8

       displays the medications to be administered during dialysis and identifies each new or
       changed order since the last treatment. After each service or medication is provided, the
       nurse records in the Wynnewood System that the service or medication was provided in
       accordance with the medication summary instructions.

   •	 Physicians enter and approve medical orders, including changes in the dose of Epogen, in
      the Wynnewood System. Also, physicians can change a patient’s orders by telephone;
      however, when the nurse enters the change into the Wynnewood System the physician
      order is flagged until signed by the ordering physician. Changes made by nurses based
      on an algorithm are also flagged until signed by the attending physician.

Although Wynnewood had controls in place as specified in the Renal Care Group Manual, based
on our review, Wynnewood personnel did not always follow all of these procedures. Nurses did
not always administer the Epogen dose reflected in the Routine Medication Summary of the
Wynnewood System, nurses did not always compute Epogen doses based on the algorithm
ordered for the patient, and physicians did not verify or approve order changes, including
changes in the Epogen dose, in a timely manner. Also, Wynnewood submitted bills for Epogen
to Medicare with incorrect billing information.

RECOMMENDATIONS

We recommend that Wynnewood:

   •	 refund the $371 in overpayments and

   •	 ensure that it follows policies and procedures that are consistent with Federal
      requirements in order to avoid discrepancies between the units of Epogen ordered by
      patients’ physicians and the units administered to the patient, billed by Wynnewood, and
      paid by Medicare.

FRESENIUS COMMENTS

In comments on our draft report, Fresenius stated that it will refund the $371 in overpayments
and that the nursing staff will undergo a training program to improve compliance with policies
and procedures relating to the ordering and administration of Epogen. Fresenius also brought to
our attention a technical correction regarding its algorithm policy that we have amended in the
report. Fresenius’s comments are included in the Appendix.




                                               9

APPENDIX

                                                                                       APPENDIX
                                                                                        Page 1 of 3 





                           Fresenius Medical Care
                                North America

   June 19, 2009                                                    fD) IE © [§ 0'" ~ IfI\
   Stephen Virbitsky
   Regional Inspector General for Audit Services
   Office of Audit Services, Region III
                                                                    ~I      JUN 2 2 2009     I~
   Public Ledger Building, Suite 316
   150 S. Independence Mall West
   Philadelphia, PA 19106-3499

   Re: Audit Draft A-03-07-00029, Payments for Epogen Administered at Fresenius
   Medical Care-Wynnewood, Wynnewood, Pennsylvania

   Dear Mr. Virbitsky:

   Thank you for the opportunity to review and respond to your office's Draft Report.

   The results of this draft report are consistent with other Medicare claims reviews
   conducted internally by Fresenius staff (as part of Fresenius' ongoing compliance
   audit program activities) and with other external reviews such as CERT and PERM.
   Of the $83,910.30 in claims reviewed, $371 was identified by the audit as not eligible
   for Medicare reimbursement - reflecting 0.442% of the sampled claims. This
   payment error rate compares favorably to the most recent May 2008 3.7% CERT
   national paid claims error rate.

   In response to these audit findings Fresenius will take the following steps:


   OIG Audit Recommendation:

   "ensure that it follows policies and procedures that are consistent with Federal
   requirements in order to avoid discrepancies between the units of Epogen ordered
   by the patients' physicians and the units administered to the patient, billed by
   Wynnewood, and paid by Medicare".

   Fresenius Corrective Action Taken or Planned:

   While the payment error rate is low, we recognize the need for the facility to improve
   its compliance with policies and procedures relating to the ordering and
   administration of Epogen. Therefore, the clinic will take the following steps:

       •   All nursing staff will undergo an in-service program designed to inform the
           staff of: (a) the statutes and regulations relating to creating and maintaining
Fresenius Medical Care North America
Corporate Headquarters: 920 Winter Street, Waltham, MA 02451-1457 (781) 699-9000
                                                                                        APPENDIX
                                                                                         Page 2 of 3




       •   medical record documentation; (b) the applicable Fresenius policies. including
           but not limited to documentation of physician orders and documentation of
           care furnished while the computer medical record is down; (c) the
           responsibility of each staff member to conform to applicable statutes.
           regulations, and policies; and (d) the consequences of failing to comply with
           applicable Fresenius policies. All new nursing staff members will continue to
           undergo Fresenius training which includes the foregoing topics.
       •   Consistent with the Part 494 Conditions for Coverage (42 CFR Section
           494.110 Condition: Quality assessment and performance improvement) for
           the next 12 months the facility's Quality Assessment and Improvement
           Process will review a sampling of active medical records to monitor improved
           compliance with applicable Fresenius medical record documentation policies.
       •   The 2010 Fresenius Compliance Audit program will include a review of (a) the
           training activity above, to ensure that all affected employees were trained; (b)
           the (quality improvement process) to ensure that the aforementioned reviews
           occurred; and (c) an assessment of whether the training and monitoring has
           been effective in causing the facility to conform to applicable Fresenius
           policies.

DIG Audit Recommendation:

-refund the $371 in overpayments·

Fresenius Corrective Action Taken or Planned:

   •   Given the age of these claims, we will contact the intermediary to determine the
       process to repay overpayments.


Finally, I note that in the Background section of the Introduction, the audit states:

       ~Some facilitiesmay also use a preestablished dosing algorithm. The algorithm
       is a formula established by the facility Medical Director and ordered by the
       physician:

At Fresenius Medical Care clinics, while the facility Medical Director and Governing
Body review and approve algorithms ordered by staff physicians, it is the staff physician
(and not the medical director) who establishes the algorithm for the staff physician's
patients. While often all physicians at the clinic (including the staff physician who serves
as medical director) agree to use a single algorithm, it is the staff physician rather than
the medical director who establishes an algorithm for a particular patient.




Fresenius Medical Care North America
Corporate Headquarters: 920 Winter Street, Waltham, MA 02451-1457 (781) 699·9000
                                                                                   APPENDIX
                                                                                    Page 3 of 3 





2~~
Senior Vice President and Chief Compliance Officer
Fresenius Medical Care North America
920 Winter 8t.
Waltham, MA 02451




Fresenius Medical Care North America
Corporate Headquarters: 920 Winter Street, Waltham, MA 02451-1451 (781) 699-9000
